MEMORANDUM

                                                                      September 30, 2005


To:        Corey Booth
           Kenneth Fogash
From:      Walter Stachnik     4.}
Re:        Security Certification and Accreditation of EFOIA (Audit No. 410)


Attached is the public audit report (No. 410) of the EFOIA certification and accreditation.
The review was performed by ECS under a contract with our Office. The non-public
technical report will be sent separately by email. The detailed recommendations from
the non-public technical report will be tracked in the Audit Recommendation Tracking
System.
We would appreciate receiving any additional comments you have concerning this audit
and the report. In particular, we would like to know whether you found the audit useful.
We also welcome any suggestions from you concerning how we could improve future
audits.
The courtesy and cooperation of you and your staff during this audit are appreciated.

Attachment
cc:     Chrisan Herrod
        Peter Uhlmann
        Barbara Stance
        James McConnell
        Dan Lisewski
        Darlene Pryor
        Richard Hillman
        Celia Winter
             Security Certification and
              Accreditation of EFOIA


                         EXECUTIVE SUMMARY
 An Office of Inspector General (OIG) contractor (ECS) evaluated the EFOIA
 application as part of the OIG's fiscal year 2005 review under the Federal
 Information Security Management Act (FISMA). EFOIA was chosen for review
 because it had been certified and accredited (C&A) this year.
 ECS briefed Commission management on its detailed findings and
 recommendations. The review found several risk areas in EFOIA, including the
 process for performing the certification and accreditation, contingency testing and
 training, and server room controls.
 Commission management promptly began to consider appropriate corrective
 measures as a result of the review.


                      OBJECTIVES AND SCOPE
 Our objectives were to determine if the EFOIA application met the necessary
 security requirements prescribed by FISMA and described in Office of Management
 and Budget (OMB) and National Institute of Standards and Technology (NIST)
 standards .
. During the review, the contractor interviewed Commission staff, reviewed relevant
  documentation, and evaluated and observed physical controls. The contractor used
  the information gathered to identify risk levels in EFOIA (i.e., high, medium, low)
  for a number of information technology (IT) areas. The contractor then identified
  possible solutions to eliminate or mitigate those risks.
 The audit was performed in accordance with generally accepted government
 auditing standards between July and September, 2005.




 Security Certification and Accreditation of EFOIA-Audit No. 410   September 30, 2005
                                BACKGROUND
EFOI is a major application used by the Office of Filing and Information Services
(OFIS) to process Freedom of Information Act (FOIA) and Privacy Act (PA) requests
from individuals and businesses. The application is actually a commercial-off-the-
shelf (COTS) product called FOIAXpress developed by AINS, Inc. FOIAXpress is
used by several federal agencies in addition to the Commission.
EFOIA is a web-based application that electronically creates, stores, retrieves,
redacts, and prints documents for delivery to FOIA requesters. It also keeps track
of FOIA processing statistics and fees in addition to generating reports on the
number, types, and nature of FOIA requests processed, as required by the
Department of Justice. EFOIA is maintained by the Office of Information
Technology (OIT), and resides on an application server in the Commission's data
center.
As the system owner, OFIS is responsible for following the IT management and
security policies issued by OIT, as well as related statutes and government-wide
regulations. OIT provides software development, hardware, and technical
assistance to OIEA to help it carry out its IT management functions. OFIS has also
contracted with AINS for application support in troubleshooting EFOIA problems.
OIT coordinated and implemented the certification and accreditation of EFOIA
during fiscal year 2005 as required by OMB Circular A-130. Accreditation is the
official management decision given by a senior agency official to authorize operation
of an IT system. It involves explicitly accepting the risk to agency operations,
assets, or individuals based on the implementation of an agreed-upon set of security
controls.
The supporting evidence needed for security accreditation is developed through a
detailed security review of the IT system, referred to as security certification.
Certification determines the extent to which controls are implemented correctly,
operating as intended, and meet the system security requirements.


                               AUDIT RESULTS
We found that security certification and accreditation at the Commission needs to
be improved and brought into compliance with OMB and NIST standards,
particularly regarding the independence of the certification agent. In addition, the
certification of EFOIA depended on the certification of the general infrastructure
support system (GSS), which had not yet occurred.
We identified several deficiencies within the EFOIA application, including
contingency testing and training, and security room controls. The contractor
prepared a detailed report containing its findings and recommendations. Because of
the sensitivity of the detailed report, we have decided to issue this public report
summarizing the results of our review.




Security Certification and Accreditation ofEFOIA-Audit No. 410       September 30, 2005
